IN THE
SUPPREME COURT OF THE UNITED STATES

STEVEN ZAPATA, PETITIONER
vs.

COMMONWEALTH OF KENTUCKY, RESPONDENTS

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The Petitioner, Steven Zapata, asks leave to file the attached petition for writ of certiorari
without prepayment of costs and to proceed in forma pauperis.

Please check the appropriate boxes:

x Petitioner has previously been granted leave to proceed in forma pauperis in the
following court(s):

Kentucky Supreme Court by Order of November 2, 2018, Jefferson Circuit Court, Division
Three Commonwealth of Kentucky v. Steven Zapata, Case No. 13-CR-2075.

x A copy of the order of appointment is appended.

 

‘ounsel of Record for Petitioner Zapata
Member, Bar of the U.S. Supreme Court
Lynch, Cox, Gilman and Goodman, P.S.C.
500 West Jefferson Street, Suite 2100
Louisville, Kentucky 40202
502.589.4215
COMMONWEALTH OF KENTUCKY

JEFFERSON CIRCUIT,COURT
DIVISION THREE (3)
CASE NO. 13-CR-2075
COMMONWEALTH OF KENTUCKY PLAINTIFF
Vv. ORDER
STEVEN ZAPATA ae DEFENDANT

KAKKKKKR KKK RK

This matter having come before this Court on motion of the defendant, Steven Zapata, and
this Court being sufficiently advised,

IT IS HEREBY ORDERED that defendant Zapata’s motion to proceed in forma pauperis
on appeal is GRANTED and the Kentucky Department of Public Advocacy is APPOINTED AS

COUNSEL for the defendant for purposes of appeal to the Kentucky Supreme Court.

This day of November 2018.
MITCH PERRY, JUDGE
JEFFERSON CIRCUIT COURT
Distribution: / / / AY { y
fi

 

ERED ING

    

EN
DAVID L

    
     
  

§ ra}
Assistant Commonwealth Attomey NICHOLSON, Pil

J. Vincent Aprile 7 { NOV 02 2018
Defense Counsel BY____
: =PUTYCLERK
Kentucky Department of Public Advocacy R a
Appellate Branch I
5 Mill Creek Park

Frankfort, KY 40601
